                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF lNVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 108050037                                                                       Page 1 of 1




          January 14, 2009

          We received an allegation that an entit/ funded by NSF and other federal agencies had obtained
          inappropriate access to NSF's Account Payable Log and that the entity's subcontractor2 had hired an
          individual who had mischarged his time and effort. This allegedly mischarged time and effort had
          been paid for with federal funds. We reviewed these allegations and found them to be without
          substance.

          Accordingly, this case is closed.




                                                                    (




         .I   [redacted]
          2   [redacted]




NSF OIG Fonn 2 (11/02)
